      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                         Washington, D.C. 20201




January 20, 2012

TO:           Marilyn Tavenner
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Gloria L. Jarmon/
              Deputy Inspector General for Audit Services


SUBJECT:      Oregon Improperly Claimed Federal Reimbursement for Medicaid Family
              Planning Services Provided Under the Family Planning Expansion Project
              (A-09-11-02010)


Attached, for your information, is an advance copy of our final report on Oregon’s claims for
Federal reimbursement for Medicaid family planning services provided under the Family
Planning Expansion Project. We will issue this report to the Oregon Health Authority within
5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at (415) 437-8360
or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-11-02010.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



January 26, 2012

Report Number: A-09-11-02010

Bruce Goldberg, M.D.
Director
Oregon Health Authority
500 Summer Street NE, E-20
Salem, OR 97301

Dear Dr. Goldberg:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Oregon Improperly Claimed Federal Reimbursement for
Medicaid Family Planning Services Provided Under the Family Planning Expansion Project.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call
me, or contact Janet Tursich, Audit Manager, at (206) 615-2063 or through email at
Janet.Tursich@oig.hhs.gov. Please refer to report number A-09-11-02010 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Bruce Goldberg, M.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




OREGON IMPROPERLY CLAIMED
FEDERAL REIMBURSEMENT FOR
 MEDICAID FAMILY PLANNING
 SERVICES PROVIDED UNDER
   THE FAMILY PLANNING
    EXPANSION PROJECT




                       Daniel R. Levinson
                        Inspector General

                         January 2012
                         A-09-11-02010
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices
    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1905(a)(4)(C) of the Act, States are required to furnish family planning
services and supplies to individuals of childbearing age who are eligible under the State plan and
desire such services and supplies. Section 1903(a)(5) of the Act and Federal regulations
(42 CFR § 433.10(c)(1)) authorize Federal reimbursement for family planning services at an
enhanced Federal medical assistance percentage of 90 percent (90-percent rate). Family
planning services prevent or delay pregnancy or otherwise control family size.

In Oregon, the Oregon Health Authority (State agency) administers the Medicaid program. The
State agency provides Medicaid family planning services under the Oregon Health Plan and the
Family Planning Expansion Project (Expansion Project). This report focuses on family planning
services provided under the Expansion Project. Another report (A-09-10-02043) focused on
family planning services provided under the Oregon Health Plan.

The Expansion Project extends Medicaid coverage for family planning services to Oregon
women and men who do not qualify for regular Medicaid and have family incomes at or below
185 percent of the Federal poverty level (Federal income limit). Because Expansion Project
clients are not eligible for the regular Medicaid program, unallowable expenditures charged to
the Expansion Project are unallowable in their entirety. Pursuant to the Oregon Administrative
Rules (OAR), § 333-004-0020(1)(e), to be considered eligible for family planning services, the
client must provide a valid Social Security number. Pursuant to OAR § 333-004-0120(1), the
State agency is responsible for verifying the accuracy and appropriateness of payment under the
Expansion Project.

During the period October 1, 2006, through September 30, 2009, the State agency claimed
approximately $62.7 million ($56.4 million Federal share) for Medicaid family planning services
provided to clients under the Expansion Project, representing 448,036 claims. Of these claims,
we reviewed a random sample selected from 401,486 claims totaling $56,408,484, and we
separately reviewed 46,550 claims totaling $6,273,285.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal reimbursement at the
90-percent rate for Medicaid family planning services provided under the Expansion Project in
accordance with Federal and State requirements.



                                                i
SUMMARY OF FINDINGS

The State agency did not always claim Federal reimbursement at the 90-percent rate for
Medicaid family planning services provided under the Expansion Project in accordance with
Federal and State requirements:

   •   Of the 100 sampled claims, 89 claims complied with requirements. However, for
       11 claims totaling $1,015, the State agency did not comply with Federal income
       eligibility requirements, or providers made billing errors. The erroneous claiming
       occurred because the State agency did not verify clients’ family incomes, allowed up to
       $500 over the Federal income limit, or did not provide adequate oversight of providers’
       billing practices. Based on our sample results, we estimated that the State agency
       claimed $1,408,087 in unallowable Federal reimbursement.

   •   Of the $6.3 million that we reviewed separately, the State agency claimed $284,869 in
       unallowable Federal reimbursement for (1) clients who were not eligible to receive
       family planning services because they had family incomes that exceeded the Federal
       income limit or did not provide valid Social Security numbers or (2) claims that the State
       agency identified as duplicates. The erroneous claiming occurred because the State
       agency did not properly review clients’ eligibility or have adequate controls to prevent
       and detect duplicate claims for family planning services.

In total, the State agency claimed $1,692,956 in unallowable Federal reimbursement.

In addition, of the $6.3 million that we reviewed separately, the State agency did not verify
clients’ family incomes or Social Security numbers for claims totaling $2,979,364 (Federal
share). Because the supporting documentation was not readily available for these claims, we
have set aside this amount for resolution by CMS and the State agency.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,692,956 to the Federal Government,

   •   work with CMS to resolve the $2,979,364 that we set aside,

   •   verify clients’ family incomes and limit income eligibility in accordance with Federal
       requirements,

   •   verify that Social Security numbers provided by clients are valid, and

   •   strengthen controls to prevent and detect duplicate claims for family planning services.




                                                ii
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and provided information on actions that it had taken or planned to take to address them. The
State agency’s comments are included in their entirety as Appendix C.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Medicaid Program .............................................................................................. 1
              Medicaid Coverage of Family Planning Services .............................................. 1
              Oregon’s Medicaid Family Planning Programs ................................................. 1
              State Requirements for the Family Planning Expansion Project ....................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope .................................................................................................................. 2
               Methodology ...................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          FEDERAL REQUIREMENTS ...................................................................................... 5

          STATE REQUIREMENTS ........................................................................................... 5

          UNALLOWABLE CLAIMS IDENTIFIED IN THE SAMPLE ................................... 5

          UNALLOWABLE CLAIMS IDENTIFIED BY THE STATE AGENCY ................... 6
              Ineligible Clients ................................................................................................ 6
              Duplicate Claims ................................................................................................ 6

          POTENTIALLY UNALLOWABLE CLAIMS ............................................................ 6

          RECOMMENDATIONS ............................................................................................... 7

          STATE AGENCY COMMENTS .................................................................................. 7

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                     iv
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. Section 1115 of the Act authorizes demonstration
projects (waivers) to assist in promoting the objectives of the Medicaid program.

Medicaid Coverage of Family Planning Services

Pursuant to section 1905(a)(4)(C) of the Act, States are required to furnish family planning
services and supplies to individuals of childbearing age who are eligible under the State plan and
desire such services and supplies. Section 1903(a)(5) of the Act and Federal regulations
(42 CFR § 433.10(c)(1)) authorize Federal reimbursement for family planning services at an
enhanced Federal medical assistance percentage of 90 percent (90-percent rate).

Section 4270 of the CMS State Medicaid Manual (the Manual) states that family planning
services include those that prevent or delay pregnancy or otherwise control family size and may
also include infertility treatments. The Manual indicates that States are free to determine which
services and supplies will be covered as long as those services are sufficient in amount, duration,
and scope to reasonably achieve their purpose. However, only services and supplies clearly
furnished for family planning purposes may be claimed for Federal reimbursement at the
90-percent rate.

Oregon’s Medicaid Family Planning Programs

In Oregon, the Oregon Health Authority (State agency) administers the Medicaid program. The
State agency provides Medicaid family planning services under the Oregon Health Plan and the
Family Planning Expansion Project (Expansion Project), 1 both of which are section 1115
waivers. This report focuses on family planning services provided under the Expansion Project.
Another report (A-09-10-02043) focused on family planning services provided under the Oregon
Health Plan.

CMS approved a section 1115 waiver for the Expansion Project beginning on January 1, 1999.
The goal of the waiver was to extend Medicaid coverage for family planning services to Oregon
women and men who did not qualify for regular Medicaid and had family incomes at or below
185 percent of the Federal poverty level (Federal income limit).

1
    The Expansion Project is now known as Oregon ContraceptiveCare or CCare.



                                                        1
The Expansion Project uses a State agency contractor’s computerized payment and information
system to process Medicaid claims for payment by the Statewide Financial Management
Application. The expenditures related to the claims are reported on Form CMS-64, Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program, for Federal
reimbursement. Because Expansion Project clients are not eligible for the regular Medicaid
program, unallowable expenditures charged to the Expansion Project are unallowable in their
entirety.

State Requirements for the Family Planning Expansion Project

The Oregon Administrative Rules (OAR), § 333-004-0010(12), define family planning services
as those services provided to clients of childbearing age, including minors who are considered to
be sexually active, that are intended to prevent pregnancy or otherwise limit family size.
Pursuant to OAR § 333-004-0040: “[The Expansion Project] covers contraceptive management
services that are a limited scope of family planning services directly related to initiating or
obtaining a contraceptive method and maintaining effective use of that method.” Contraceptive
management services include, but are not limited to, annual exams; clinically indicated followup
visits; management of side effects related to the contraceptive method; changing the method if
medically necessary or requested by the client; family planning counseling and education; and
laboratory tests, medical procedures (including vasectomy), and pharmaceutical supplies and
devices related to contraceptive management.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal reimbursement at the
90-percent rate for Medicaid family planning services provided under the Expansion Project in
accordance with Federal and State requirements.

Scope

During the period October 1, 2006, through September 30, 2009, the State agency claimed
$62,681,769 ($56,413,592 Federal share) for Medicaid family planning services provided to
clients under the Expansion Project, representing 448,036 claims. Of these claims, we reviewed
a random sample selected from 401,486 claims totaling $56,408,484, and we separately reviewed
46,550 claims totaling $6,273,285.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only those internal controls related to our objective.

We conducted our audit from March 2010 to January 2011 and performed our fieldwork at the
State agency’s office in Portland, Oregon.




                                                2
Methodology

To accomplish our objective, we:

   •   reviewed Federal and State laws, regulations, and guidance;

   •   reviewed the waiver requirements for the Expansion Project;

   •   held discussions with CMS officials to gain an understanding of CMS guidance furnished
       to State agency officials concerning Medicaid family planning claims;

   •   held discussions with State agency officials to gain an understanding of State policies and
       controls for claiming Federal reimbursement for family planning services;

   •   obtained family planning claim data from the State agency contractor’s computerized
       payment and information system;

   •   reconciled family planning claim data with Form CMS-64;

   •   created a sampling frame that contained 401,486 claims totaling $56,408,484
       ($50,767,636 Federal share);

   •   selected from the sampling frame a simple random sample of 100 claims for which we
       reviewed client eligibility for services and client medical records; and

   •   estimated the unallowable Federal reimbursement paid in the sampling frame of 401,486
       claims.

During our audit, the State agency identified 46,550 claims totaling $6,273,285 ($5,645,956
Federal share) that were (1) for clients whose eligibility for the Expansion Project was unknown
and for whom supporting documentation was not readily available, (2) for a State-only program,
(3) for clients who were not eligible for the Expansion Project, (4) potential duplicate claims, or
(5) paid by private insurance companies. Therefore, we reviewed these claims separately:

   •   For 27,405 claims, the State agency said that it did not verify clients’ family incomes.
       For 4,205 of these claims, the State agency also said that it did not verify Social Security
       numbers. We reported this issue as a finding and set aside these claims because the
       supporting documentation was not readily available.

   •   For 14,784 claims, the State agency said that these claims should have been funded only
       by the State agency. Before the beginning of our audit, the State agency had identified
       these claims and made an adjustment to Form CMS-64 to refund the amount owed to the
       Federal Government. We reviewed the State agency’s adjustment and determined that it
       refunded the proper amount. We did not report this issue as a finding.




                                                 3
   •   For 2,109 claims, the State agency said that the claims were for clients who were not
       eligible to receive services because they had family incomes that exceeded the Federal
       income limit or did not provide valid Social Security numbers. We reviewed the State
       agency’s process to identify claims for ineligible clients and judgmentally selected a
       sample of 30 claims to verify that these clients were not eligible for services. We
       reported the 2,109 erroneous claims as a finding.

   •   For 1,972 potential duplicate claims, the State agency verified that 883 claims were
       duplicates (2 claims for the same service and the same client on the same day). We
       reviewed the State agency’s process to identify duplicate claims and its adjustment to
       Form CMS-64 to reduce the Federal reimbursement. We determined that the State
       agency did not refund the entire amount associated with claims identified as duplicates
       and reported this issue as a finding.

   •   For 280 claims, the State agency said that the claims were paid by private insurance
       companies and not included on Form CMS-64 for reimbursement by the Federal
       Government. We amended the sampling plan to reduce the sampling frame by
       280 claims.

Appendix A contains the details of our sample design and methodology, and Appendix B
contains our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Federal reimbursement at the 90-percent rate for
Medicaid family planning services provided under the Expansion Project in accordance with
Federal and State requirements:

   •   Of the 100 sampled claims, 89 claims complied with requirements. However, for
       11 claims totaling $1,015, the State agency did not comply with Federal income
       eligibility requirements, or providers made billing errors. The erroneous claiming
       occurred because the State agency did not verify clients’ family incomes, allowed up to
       $500 over the Federal income limit, or did not provide adequate oversight of providers’
       billing practices. Based on our sample results, we estimated that the State agency
       claimed $1,408,087 in unallowable Federal reimbursement.

   •   Of the $6.3 million that we reviewed separately, the State agency claimed $284,869 in
       unallowable Federal reimbursement for (1) clients who were not eligible to receive
       family planning services because they had family incomes that exceeded the Federal
       income limit or did not provide valid Social Security numbers or (2) claims that the State


                                                4
         agency identified as duplicates. The erroneous claiming occurred because the State
         agency did not properly review clients’ eligibility or have adequate controls to prevent
         and detect duplicate claims for family planning services.

In total, the State agency claimed $1,692,956 in unallowable Federal reimbursement.

In addition, of the $6.3 million that we reviewed separately, the State agency did not verify
clients’ family incomes or Social Security numbers for claims totaling $2,979,364 (Federal
share). Because the supporting documentation was not readily available for these claims, we
have set aside this amount for resolution by CMS and the State agency.

FEDERAL REQUIREMENTS

Pursuant to section 4270.B of the Manual, States are free to determine which family planning
services and supplies will be covered as long as they are sufficient in amount, duration, and
scope to reasonably achieve their purpose. However, the Manual states that only services and
supplies clearly furnished for family planning purposes may be claimed for Federal
reimbursement at the 90-percent rate.

According to CMS’s approval letter for the extension of the section 1115 waiver for the
Expansion Project, dated December 21, 2006, the State agency will cover family planning
services for uninsured clients who do not qualify for regular Medicaid and have family incomes
at or below 185 percent of the Federal poverty level.

Pursuant to section 11325.A of the Manual, States’ claims processing systems must ensure that
all recipients were eligible when services were provided and check each claim before payment
against all current and previously paid claims for which a duplicate payment could exist.

STATE REQUIREMENTS

Pursuant to OAR § 333-004-0020(1)(a), to be considered eligible for family planning services
provided under the Expansion Project, the client’s household income must be below 185 percent
of the Federal level. 2 Pursuant to OAR § 333-004-0020(1)(e), the client is required to provide a
valid Social Security number.

Pursuant to OAR § 333-004-0120(1), the State agency is responsible for verifying the accuracy
and appropriateness of payment under the Expansion Project.

UNALLOWABLE CLAIMS IDENTIFIED IN THE SAMPLE

For 11 sampled claims totaling $1,015, the State agency did not comply with Federal income
eligibility requirements, or providers made billing errors:


2
 This income threshold (below 185 percent of the Federal poverty level) is inconsistent with the one specified in the
CMS approval letter (at or below 185 percent of the Federal poverty level). However, the State agency applied the
threshold specified in the approval letter.


                                                          5
    •   For eight claims, clients’ family incomes ranged from $186 to $2,462 over the Federal
        income limit. The State agency did not verify some clients’ family incomes and provided
        services to other clients whose incomes exceeded the Federal income limit by as much as
        $500.

    •   For three claims, providers billed for (1) an order of supplies that was declined by the
        client or (2) orders of supplies that were not provided to the clients. The State agency did
        not provide adequate oversight of providers’ billing practices.

Based on our sample results, we estimated that the State agency claimed $1,408,087 in
unallowable Federal reimbursement.

UNALLOWABLE CLAIMS IDENTIFIED BY THE STATE AGENCY

Of the $6.3 million that we reviewed separately, the State agency claimed $284,869 in
unallowable Federal reimbursement for ineligible clients and duplicate claims.

Ineligible Clients

The State agency claimed reimbursement for 2,109 claims, totaling $281,420 ($253,277 Federal
share), for clients who were not eligible to receive services because they had family incomes that
exceeded the Federal income limit or did not provide valid Social Security numbers. The
erroneous claiming occurred because the State agency did not verify clients’ family incomes or
Social Security numbers.

Duplicate Claims

Of the 883 duplicate claims that the State agency identified, it did not refund the amount owed to
the Federal Government for 241 claims totaling $35,102 ($31,592 Federal share). 3 Some of the
duplicate claims were the result of a provider changing its billing system, and other duplicate
claims were caused by provider billing errors. The erroneous claiming occurred because the
State agency did not have adequate controls to prevent and detect duplicate claims for family
planning services.

POTENTIALLY UNALLOWABLE CLAIMS

The State agency claimed reimbursement for 27,405 claims, totaling $3,310,404 ($2,979,364
Federal share), for clients who may not have been eligible to receive services. For these claims,
the State agency did not verify clients’ family incomes. In addition, for 4,205 of these claims,
the State agency did not verify Social Security numbers. Because the supporting documentation
was not readily available for the 27,405 claims, we have set aside $2,979,364 for resolution by
CMS and the State agency.



3
  During our audit, the State agency refunded the amount owed to the Federal Government for 642 of these claims,
totaling $72,788.


                                                        6
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,692,956 to the Federal Government,

   •   work with CMS to resolve the $2,979,364 that we set aside,

   •   verify clients’ family incomes and limit income eligibility in accordance with Federal
       requirements,

   •   verify that Social Security numbers provided by clients are valid, and

   •   strengthen controls to prevent and detect duplicate claims for family planning services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and provided information on actions that it had taken or planned to take to address them. The
State agency’s comments are included in their entirety as Appendix C.




                                                7
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicaid claims for family planning services and supplies submitted
by providers under the Family Planning Expansion Project (Expansion Project) for which the
Oregon Health Authority (State agency) claimed Federal reimbursement at an enhanced Federal
medical assistance percentage of 90 percent during the period October 1, 2006, through
September 30, 2009.

SAMPLING FRAME

The State agency provided us with a data file of claims for family planning services and supplies
under the Expansion Project. This file excluded claims that were ineligible for reimbursement,
duplicate claims, and claims where eligibility had yet to be determined. The result was a data
file that contained 401,486 claims totaling $56,408,484 ($50,767,636 Federal share).

SAMPLE UNIT

The sample unit was an individual Medicaid claim for a family planning service or supply
provided to an Expansion Project client.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 claims for family planning services and supplies.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General (OIG), Office of Audit
Services (OAS), statistical software.

METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the sample units in the frame from 1 to 401,486. After generating
100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the unallowable Federal reimbursement
paid.
             APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                SAMPLE RESULTS

              Value of                                                    Value of
              Sampling                       Value of                    Unallowable
               Frame                          Sample       Number of       Items
 Sampling     (Federal                       (Federal      Unallowable    (Federal
Frame Size     Share)       Sample Size       Share)         Items         Share)
  401,486    $50,767,636       100            $11,991          11          $1,015


              ESTIMATED VALUE OF UNALLOWABLE CLAIMS
              (Limits Calculated for a 90-Percent Confidence Interval)

                           Point estimate    $4,076,645
                           Lower limit        1,408,087
                           Upper limit        6,745,202
                                    Page 1 of 3


APPENDIX C: STATE AGENCY COMMENTS
Page 2 of 3
Page 3 of 3
